TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Inadequate Data on Paid Preparers Impedes
                           Effective Oversight



                                        July 14, 2009

                           Reference Number: 2009-40-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 14, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Inadequate Data on Paid Preparers Impedes
                             Effective Oversight (Audit # 200840037)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has complete, accurate, and reliable data on tax return preparers for efficient and effective
 tax administration. This audit was conducted as part of our Fiscal Year 2009 Annual Audit Plan.

 Impact on the Taxpayer
 More than one-half of all tax returns filed are prepared by paid preparers. However, the IRS
 cannot determine the population of preparers or if the preparers are compliant with their own tax
 obligations, as well as compliant with all tax laws and regulations. Tax return preparers have a
 significant effect on taxpayer compliance. A unique identifying number to control each preparer
 and an effective management information system are necessary for the IRS to facilitate tax
 administration and provide effective oversight of preparers.

 Synopsis
 Management information on paid preparers is incomplete and inconsistent. The IRS maintains
 significant data on paid preparers, but it is not feasible to use the data to track, monitor, or
 control preparers’ activities and compliance because preparers use multiple identifying numbers
 when dealing with the IRS, data on preparers are decentralized to more than 20 different
 systems, and the systems are not integrated.
                               Inadequate Data on Paid Preparers Impedes
                                          Effective Oversight



preparers to use unique identifying numbers. 4 Currently, it is not feasible to effectively identify
preparers and enforce the preparer requirements to sign tax returns and provide identifying
numbers. Requiring a unique identifying number for all preparers would help provide the
standardization the IRS needs to identify the preparer population and enforce tax laws and
regulations. Developing a management information system around its current internal systems,
with the ability to determine the designations of preparers, would allow the IRS to develop
business rules to control, track, and monitor preparers.

Recommendations
We recommended that the Commissioner, Small Business/Self-Employed Division, revise the
target completion date for its study on requiring preparers to use a single identification number
when filing tax returns. This will ensure the IRS has a means to control and track preparer
activities by the 2011 Filing Season. The Commissioner should develop a method to enforce
Internal Revenue Code Section (§) 6695(c) that imposes a penalty on preparers who do not
provide an identification number on tax returns they prepare. Finally, the Commissioner should
develop a comprehensive data management system that allows the IRS, at a minimum, to
determine the population of preparers by eliminating discrepancies and duplicates between
systems. This system should include business rules that would allow the IRS to control, track,
and monitor preparers’ activities.

Legislative Recommendation
Establish a requirement that paid preparers be compliant with their own Federal tax filing
requirements in order to be allowed to prepare tax returns for others for a fee.

Response
IRS management agreed with two recommendations and agreed in principle with two other
recommendations. In its response to this report, the IRS stated that it has recently launched the
Tax Return Preparer Review that is expected to cover a broad range of areas related to paid
preparers. By the end of this calendar year, the IRS intends to propose a comprehensive set of
recommendations designed to better leverage the tax return preparer community with the IRS’
dual goals of increasing taxpayer compliance and ensuring uniform and high ethical standards of
conduct for tax preparers.



4
 Information on the Centralized Authorization File Is Often Not Accurate or Complete (Reference
Number 2004-10-148, dated August 25, 2004) and Most Tax Returns Prepared by a Limited Sample of Unenrolled
Preparers Contained Significant Errors (Reference Number 2008-40-171, dated September 3, 2008).
                                                                                                    Page 3
                            Inadequate Data on Paid Preparers Impedes
                                       Effective Oversight



Relating to specific recommendations, IRS management agreed to develop a method to enforce
Internal Revenue Code § 6695(c) that imposes a penalty on preparers who do not provide an
identification number on tax returns they prepare. Management also agreed with our
recommendation to develop a comprehensive data management system that allows the IRS, at a
minimum, to determine the population of preparers by eliminating discrepancies and duplicates
between systems. They added, however, that they were not in a position at this time to
independently recommend a specific methodological approach to this issue.
IRS management agreed in principle that tax preparers should use a single identification number
when filing tax returns. They also agreed in principle to require paid preparers to be compliant
with their own Federal tax filing requirements. Management stated that the Tax Return Preparer
Review team will be addressing these issues. Management also responded to a recommendation
related to amending Internal Revenue Code § 6695(c) to impose a penalty on preparers who do
not provide the required single identifying numbers when preparing tax returns; however, based
on prior discussions with the IRS, we had agreed to remove this recommendation. The IRS
stated that it can accomplish this without a legislative change. Management’s complete response
to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Because this report contains a legislative recommendation, we will provide a
copy to the Assistant Secretary of the Treasury for Tax Policy. Please contact me at
(202) 622-6510 if you have questions or Michael E. McKenney, Assistant Inspector General for
Audit (Returns Processing and Account Services), at (202) 622-5916.




                                                                                         Page 4
                                       Inadequate Data on Paid Preparers Impedes
                                                  Effective Oversight




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Information on Paid Preparers
          Is Incomplete and Inconsistent......................................................................Page 3
          Five Percent of Preparers Were Not Compliant
          With Their Own Tax Obligations .................................................................Page 11
                    Recommendation 1: ...............................................................................Page 12

          The Internal Revenue Service Does Not Have a Sufficient
          Data Management System to Control Preparers to Allow
          It to Achieve Its Strategic Goals ...................................................................Page 13
                    Recommendation 2:........................................................Page 18

                    Recommendations 3 through 4:.........................................Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Internal Revenue Code Preparer Penalties...........................Page 24
          Appendix V – Management’s Response to the Draft Report .......................Page 25
                   Inadequate Data on Paid Preparers Impedes
                              Effective Oversight




                          Abbreviations

IRS                Internal Revenue Service
E-file (E-filed)   Electronically file or Electronically filed
PTIN               Preparer Tax Identification Number
TIGTA              Treasury Inspector General for Tax Administration
                                   Inadequate Data on Paid Preparers Impedes
                                              Effective Oversight




                                         Background

Every year, more than one-half of all taxpayers pay someone else to prepare their income tax
returns. In Calendar Year 2008, the Internal Revenue Service (IRS) processed approximately
86.9 million individual Federal income tax returns prepared by paid preparers. This is up more
than 4 percent from the nearly 83 million tax returns prepared by paid preparers that the IRS
                                                     processed in Calendar Year 2007. Currently,
                                                     there are no national standards that a preparer
   Paid preparers can be self-employed or may
   work for accounting firms, large tax preparation  is required to satisfy before selling tax
   services, or law firms and include the following: preparation services to the public. Anyone,
   • Licensed professionals, such as attorneys
                                                     regardless of training, experience, skill, or
       and Certified Public Accountants. These       knowledge, is allowed to prepare Federal
       licensed professionals are regulated by the   income tax returns for others for a fee.
      State licensing authority.
                                                     State regulation of paid preparers focuses on
  •   Enrolled agents. These professionals pass      licensed practitioners, and with the exception
      an IRS examination or present evidence of      of California, Maryland, and Oregon, most
      qualifying experience as a former IRS
      employee and have been issued an
                                                     States allow anyone to be a paid preparer
      enrollment card. Enrolled agents are the       regardless of education, training, or licensure.
      only taxpayer representatives who receive      Unenrolled paid preparers are not required to
      their right to practice from the Federal       demonstrate a minimum competency in tax
      Government.                                    law, nor are they required to satisfy any
  •   Unenrolled or unlicensed preparers.            continuing education requirements in order to
      These individuals range from those who
                                                     prepare Federal tax returns.
      might receive extensive training to those
      with little or no training. Currently, only
                                                Paid preparers authorized to represent
      three States—California, Maryland, and
                                                taxpayers in matters before the IRS are called
      Oregon—have requirements for unenrolled
                                                practitioners and include attorneys, Certified
      paid preparers. In these States, unenrolled
      paid preparers must register with State   Public Accountants, and Enrolled Agents.
      agencies and meet continuing education    Practitioners can legally represent taxpayers;
      requirements.                             therefore, they can serve as a conduit to the
                                                IRS on account-related matters. Examples
include preparing and filing documents, communicating with the IRS, and representing taxpayers
at meetings.
The IRS Office of Professional Responsibility regulates, for example, attorneys, Certified Public
Accountants, and Enrolled Agents who practice before the IRS. Practice is defined broadly in




                                                                                          Page 1
                                 Inadequate Data on Paid Preparers Impedes
                                            Effective Oversight



Treasury Department Circular 230 1 as comprehending all matters connected with a presentation
to the IRS relating to a taxpayer’s rights, privileges, or liabilities under laws or regulations
administered by the IRS.
Preparers can also be Electronic Return Originators. Electronic Return Originators originate the
electronic submission of income tax returns to the IRS. An Electronic Return Originator
electronically submits income tax returns that are either prepared by the Electronic Return
Originator firm or collected from taxpayers. Applicants to the Electronic Filing Program must
pass certain IRS checks, including limited criminal background checks. Participants are also
monitored.
This review was performed at the Detroit Computing Center in Detroit, Michigan, the Office of
Professional Responsibility in Washington, D.C., the Wage and Investment Division
Headquarters in Atlanta, Georgia, and the Small Business/Self-Employed Division in
Lanham, Maryland, during the period July 2008 through February 2009. This review focused
on preparers of individual tax returns [i.e., U.S. Individual Income Tax Return (Form 1040)] and
did not include preparers of corporate, partnership, or estate income tax returns. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
 Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers before the Internal Revenue Service [(Treasury
Department Circular No. 230 (revised 4-2008)].
                                                                                                     Page 2
                                  Inadequate Data on Paid Preparers Impedes
                                             Effective Oversight




                                      Results of Review

Management Information on Paid Preparers Is Incomplete and
Inconsistent
Because more than one-half of all tax returns filed are prepared by paid preparers, tax return
preparers have a significant effect on taxpayer compliance. Although the IRS maintains
extensive data on paid preparers, it is not feasible to use the data to track, monitor, or control
preparers’ activities and compliance because preparers use multiple identifying numbers when
dealing with the IRS, data on preparers are decentralized to more than 20 different systems, and
the systems are not integrated.
Foremost, the IRS cannot determine the population of preparers, which tax returns they prepared,
or which taxpayers they represent. Additionally, it cannot determine if the preparers are
compliant with their own tax obligations, as well as compliant with all tax laws and regulations.
Government Accountability Office standards require that there be sufficient management to
effectively control operations and make decisions and should be an integral component of a
system of internal controls. A unique identifying number to control each preparer and an
effective management information system are necessary for the IRS to better facilitate tax
administration and provide effective oversight of preparers.

The IRS does not currently require paid preparers to have a unique identifying
number
The IRS maintains multiple lists, databases, and systems that contain preparer information;
however, there are no data standards among these to easily match preparer information and
preparers are not required to use one identifying number. In-depth analyses and judgmental
decisions are required to match information on preparers from the various systems.
The IRS requires paid preparers to sign the tax returns they prepare and to identify themselves
using either their Social Security Numbers or Preparer Tax Identification Numbers (PTIN). 2 If




2
 A PTIN is used by a preparer who does not want to disclose his or her Social Security Number on tax returns he or
she prepares. It is a nine-character alpha/numeric issued by the IRS beginning with the letter “P” followed by eight
numeric digits.
                                                                                                        Page 3
                                   Inadequate Data on Paid Preparers Impedes
                                              Effective Oversight



they are self-employed or a member of a firm, they are also to provide their Employer
Identification Numbers. 3
Figure 1 shows that there were approximately 1.1 million unique identifying numbers used to file
the 80.5 million tax returns submitted by paid preparers in Calendar Year 2008. 4




3
  An Employer Identification Number is a unique nine-digit number used to identify a taxpayer’s business account
on IRS records. The IRS also requires that paid preparers enter their firms’ information, if the preparers are part of a
firm.
4
  These data were extracted for tax returns prepared by tax preparers and submitted to the IRS for Calendar Year
2008 through July 12, 2008, and subsequent references to Calendar Year 2008 tax returns include only tax returns
submitted to the IRS through July 12, 2008.


                                                                                                           Page 4
                                   Inadequate Data on Paid Preparers Impedes
                                              Effective Oversight



        Figure 1: Treasury Inspector General for Tax Administration’s (TIGTA)
           Attempt to Determine the Population of Preparers Who Submitted
                          Tax Returns in Calendar Year 2008

                                                                                               Unique
                          Identification                     Number of       Identifying
                                                                                             Identifying
                          Number Used                       Tax Returns       Numbers
                                                                                              Numbers

           Employer Identification Number Only                 3,076,291         32,690        32,690

           PTIN Only                                           6,738,446         65,061

           PTIN and Employer Identification Number            49,789,637        287,905

           Unique Preparer Tax Identification
                                                                                              340,643
           Numbers

           Social Security Number Only                         4,835,614         79,118

           Social Security Number and Employer
                                                              14,768,352        127,935
           Identification Number

           Unique Social Security Numbers                                                     202,206

             Total of All Unique Paid Preparers                                               575,539

           Prepared Fewer Than Six Tax Returns 5                 989,248       626,202        555,896

           No Identifying Number                                 330,909

             Totals                                          80,528,497       1,218,911      1,131,435
           Source: Our analysis of the IRS’ Individual Return Transaction File. 6

However, these may not be unique preparers. For example, Preparer John S. Doe could use
multiple numbers–his Social Security Number to file some tax returns and his PTIN to file
others. Additionally, he may not use any identifying number and he may sign the tax return
using variations of his name, for example, John Doe, John S. Doe, or J. Doe.
Trying to identify the total number of unique preparers requires significant resources to collect
preparer identifying numbers and other information from each IRS system, compare the
information collected to identify discrepancies between the systems, and ultimately make a
judgmental decision on which set of identifying numbers define a unique preparer.

5
 Preparers who had prepared a low volume of tax returns may not be paid preparers.
6
 The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                         Page 5
                               Inadequate Data on Paid Preparers Impedes
                                          Effective Oversight



returns or transcribe the names of the preparers when the returns are submitted on paper, it was
not possible to identify these preparers.

Preparers’ names and other identifying information are inconsistent among IRS
systems
We selected a statistical sample of 139 preparers to analyze the information the IRS maintains on
tax return preparers. Figure 2 shows the various combinations of identifying numbers used by
the 139 preparers sampled. Ninety-three (67 percent) of the 139 preparers sampled were
identified in various IRS systems using multiple identifying numbers.
                       Figure 2: Preparers Sampled Used Multiple
                       Identifying Numbers to Prepare Tax Returns

                                      Identification                             Number of
                                      Number Used                                Preparers

              Employer Identification Number Only                                      1

              PTIN Only                                                                8

              PTIN and Employer Identification Number                                 15

              Social Security Number Only                                             12

              Social Security Number and Employer Identification
                                                                                      10
              Number

              Various Combinations of Employer Identification Numbers,
                                                                                      93
              PTINs, and Social Security Numbers

              Total                                                                  139
               Source: Our analysis of the IRS’ various systems for the sample of preparers.

Three (2 percent) of the 139 preparers who used their Employer Identification Numbers also
entered their Employer Identification Numbers as their preparer identifying number. For
example, Employer Identification Number 12-3456789 was altered and entered as the Social
Security Number 123-45-6789.
Additionally, between the systems reviewed, the names of the 139 preparers sampled were
inconsistent 45 percent of the time. For example, in one system preparer information consisted
of a first name, middle initial, and last name, but in another system only the last name was
provided with the initials instead of the first and/or middle name. Twenty-four names
(17 percent) were not listed on any of the IRS systems we researched. Furthermore, there were
inconsistencies in 24 percent of the preparers’ street addresses listed in the various systems,
while telephone numbers varied 40 percent of the time. For 82 addresses (59 percent) and

                                                                                               Page 7
                             Inadequate Data on Paid Preparers Impedes
                                        Effective Oversight



37 telephone numbers (27 percent), we could not determine if differences existed because not
enough information was present.

Preparer designations cannot be determined using only IRS internal data
We could not determine from IRS internal
                                                 Power of Attorney and Declaration of
sources which preparers were practitioners       Representative (Form 2848)
(regulated). Other than data obtained from
the tax returns filed by preparers, the IRS      Under penalties of perjury, the representative
                                                 must declare on Form 2848 that he or she is not
maintains only the following on paid             currently under suspension or disbarment from
preparers:                                       practice before the IRS, is aware of regulations
                                                 contained in Circular 230, and is authorized to
   •   Preparers it regulates – Electronic       represent the taxpayer(s) for tax matter(s) as one
       Return Originators and Enrolled           of the following:
       Agents.                                   1) Attorney.
                                                 2) Certified Public Accountant.
   •   Preparers when they are either            3) Enrolled Actuary.
       authorized to represent taxpayers in      4) Enrolled Agent.
       front of the IRS or receive               5) Enrolled Retirement Plan Agent.
       information, such as taxpayer account     6) Family Member.
       information or notices, from the IRS      7) Full-Time Employee.
                                                 8) Officer.
       on behalf of taxpayers.                   9) Student Attorney.
                                                 10) Student Certified Public Accountant.
   •   Practitioners who have allegations of     11) Unenrolled Return Preparer.
       misconduct or have had disciplinary
       actions taken against them.
The IRS maintains a database, the Centralized Authorization File, of individuals who complete a
Power of Attorney and Declaration of Representative (Form 2848) and submit it to the IRS so
they can represent taxpayers in tax matters before the IRS. This Centralized Authorization File
contains the name, complete address, and telephone number(s) of the representative, as well as
an assigned Centralized Authorization File number, if one is assigned. It also contains the
representative’s declaration stating he or she is 1 of 11 designations.
Figure 3 compares the designations of preparers per IRS records with the results of our research
of preparer information captured in various IRS systems and State Internet web sites.




                                                                                          Page 8
                                  Inadequate Data on Paid Preparers Impedes
                                             Effective Oversight



                        Figure 3: Comparison of Preparer Designations
                             per IRS Records and TIGTA Research

                                                                                            Percentage
                                                          IRS              TIGTA
                      Designations                                                          per TIGTA
                                                        Records           Research
                                                                                             Research

         Attorney                                           3                  1                .7%
         Attorney and Certified Public
                                                            7                  1                .7%
         Accountant
         Certified Public Accountant                       25                 31                22%
         Enrolled Agent                                     5                  5                 4%
         No Designation Found in IRS
                                                           99                101                73%
         Records/Unregulated
         Total                                            139 9              139               100%
        Source: The IRS’ Centralized Authorization File and Enrolled Practitioner Program
        System, 10 and our research of State Internet web sites.

In 10 instances, the Centralized Authorization File showed the preparers were attorneys.
However, research completed on State web sites showed only two preparers were members of
that States’ Bar Associations. Seven preparers were listed in the Centralized Authorization File
as both an attorney and Certified Public Accountant. We only verified that one held both
designations. Resolving the discrepancies would require analyzing the Forms 2848 and
conducting additional research to determine if the discrepancies were caused by employee input
error, taxpayer and/or representative misunderstanding, or misrepresentation by the
representative.
The IRS relies heavily on its employees to review the accuracy of a taxpayer representative
declaration and forward identified irregularities for the appropriate disciplinary action(s). Field
employees, such as Revenue Officers, should verify the accuracy of information on declaration
forms when they accept them, but Centralized Authorization File employees do not verify the
information before accepting the authorizations to represent taxpayers before the IRS.
Verifying designations manually is resource intensive. It is not clear whether automating the
verification of designations would be feasible and/or cost effective. It would require interfacing
with State Licensing Boards.




9
 Sixty-one (44 percent) of 139 of the preparers were also Electronic Return Originators.
10
  The Enrolled Practitioner Program System is used by the Office of Practitioner Enrollment, an entity of the Office
of Professional Responsibility, to control Enrolled Agents.
                                                                                                        Page 9
                                 Inadequate Data on Paid Preparers Impedes
                                            Effective Oversight



Using current IRS systems, it is possible to identify the tax returns prepared by preparers
and identify those preparers who have been granted authorizations to represent taxpayers
before the IRS
Although the 139 preparers sampled used multiple identifying numbers, we were able to
determine how many and which tax returns were prepared by each of the preparers. The
139 preparers in our sample prepared almost 36,000 tax returns, of which 83 percent were
electronically filed (e-filed) returns. Twelve (9 percent) of the 139 preparers sampled have
current authorizations on the Centralized Authorization File.
The probability of correctly identifying preparers and the tax returns they prepare increases if the
tax return is e-filed. To participate in the e-file Program, individuals are required to apply to the
IRS and include their Social Security Numbers along with other addresses and professional
designations. If they pass certain suitability checks, they are provided a unique Electronic Filing
Identification Number that allows them to participate in the e-file Program.
All data in the “Paid Preparer’s Use Only” portion of tax returns are captured when a tax return
is e-filed. Figure 4 provides an excerpt of paid preparer identifier requirements on the
Form 1040.
                               Figure 4: Excerpt From Form 1040,
                              Paid Preparer Identifier Requirements




Source: IRS.gov, Form 1040.

When tax returns are submitted on paper and the return indicates it was prepared by a paid
preparer, IRS employees input only a Preparer Code and transcribe the following three data
fields: 1) PTIN or Social Security Number; 2) the Employer Identification Number; and 3) the
telephone number. The name of the preparer is not transcribed nor is the name of the firm or if
the preparer is self-employed. This makes it more difficult to identify the preparer if any of the
identifying numbers are incorrect or illegible.
The 12 preparers sampled who have current authorizations on the Centralized Authorization File
appear to represent 223 taxpayers. In addition, it appears that some taxpayers have more than
one representative per tax period. In Fiscal Year 2004, the TIGTA reported that the Centralized
Authorization File is not always accurate. 11 The records often contained incomplete or incorrect
information. Therefore, to be certain that each authorization is current and that taxpayers had
authorized more than one representative per tax period, we would have to test the accuracy of the

11
 Information on the Centralized Authorization File Is Often Not Accurate or Complete (Reference
Number 2004-10-148, dated August 25, 2004).
                                                                                                  Page 10
                                  Inadequate Data on Paid Preparers Impedes
                                             Effective Oversight



In addition, practitioners governed by Circular 230 are subject to disciplinary actions if they fail
to file a required Federal tax return or evade assessment or payment of Federal tax. This can
prevent a practitioner from representing the taxpayer in tax matters before the IRS, but not from
preparing tax returns for others.
In a Fiscal Year 2006 audit, we reported that the IRS had no method to identify practitioners who
were not compliant with their own tax obligations. 13 In a Fiscal Year 2009 audit, we reported
that the Office of Professional Responsibility was unaware of a significant number of licensed
tax practitioners who were assessed penalties, sentenced in a criminal proceeding, or enjoined for
tax shelter violations. 14 As a result, these tax practitioners were still eligible to represent
taxpayers before the IRS.
One of the IRS’ objectives in its Strategic Plan 2009-2013 is to ensure that all tax practitioners,
tax preparers, and other third parties in the tax system adhere to professional standards and
follow the law. Currently, the IRS does not have a sufficient management information system to
effectively achieve this goal, including the control requiring that preparers have one unique
identifying number.

Legislative Recommendation
Recommendation 1: Establish a requirement that paid preparers be compliant with their own
Federal tax filing requirements in order to be allowed to prepare tax returns for others for a fee.
        Management’s Response: IRS management agreed in principle that paid preparers
        should be compliant with their own Federal tax filing requirements. Compliance checks
        are already performed by the Office of Professional Responsibility during the enrolled
        agent admission and renewal processes and by the Wage and Investment Division prior to
        acceptance of a preparer into the Electronic Return Originator Program. The
        Commissioner’s Tax Return Preparer Review team will be making recommendations by
        the end of the year, in part, on how to ensure uniform and high ethical standards of
        conduct and competence for preparers. Accordingly, the IRS is not in a position at this
        time to independently recommend that such a requirement be established.
        Office of Audit Comment: In its response, the IRS stated that it has recently
        launched the Tax Return Preparer Review that is expected to cover a broad range of areas
        related to paid preparers. By the end of this calendar year, the IRS intends to propose a
        comprehensive set of recommendations designed to better leverage the tax return
        preparer community with the IRS’ dual goals of increasing taxpayer compliance and


13
   The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against Incompetent and
Disreputable Tax Practitioners (Reference Number 2006-10-066, dated March 31, 2006).
14
   Tax Practitioners Promoting Abusive Tax Shelters Are Still Able to Represent Taxpayers Before the Internal
Revenue Service (Reference Number 2009-10-039, dated February 20, 2009).
                                                                                                     Page 12
                             Inadequate Data on Paid Preparers Impedes
                                        Effective Oversight



       ensuring uniform and high ethical standards of conduct for tax preparers. Therefore, we
       agree that the IRS will be in a better position at that time to independently recommend
       that such a requirement be established.

The Internal Revenue Service Does Not Have a Sufficient Data
Management System to Control Preparers to Allow It to Achieve Its
Strategic Goals
In Fiscal Year 2008, the IRS began implementing a Return Preparer Strategy. The IRS states
that the Return Preparer Strategy incorporates service, education, outreach, and enforcement
activities that are based on data-driven decisions; recognizes the importance of feedback (both
internal and external); and is supported by effective and efficient technology. The Strategy
includes the following objectives:
•   Enhance knowledge management to better              The Practitioner Information and
    understand and respond to preparer needs,        Classification System was to interface
    preferences, and behaviors.                         with 22 existing IRS systems, in
                                                           addition to interfacing with
•   Explore alternative compliance strategies          applications from States and other
    with the goal of improving coverage of return        Federal Government agencies.
    preparers.
•   Develop new research initiatives to identify
    fraudulent return preparers and other areas of potential abuse and noncompliance by return
    preparers.
•   Create a data management strategy that connects return preparer information on an IRS-wide
    basis.
The Office of Professional Responsibility investigated the need for a database that could control
and monitor all paid preparers, both practitioners and unregulated preparers. IRS officials stated
that an initial estimate to create a single database to control preparers was $100,000. However,
after research was done, a new direction was taken, and in January 2007 a $48 million data
management system (called the Practitioner Information and Classification System) was
proposed. This proposed System would integrate 22 existing IRS systems, connecting preparer
return information on an IRS-wide basis. The proposed System was a centralized database of
preparer information and would have created automated mechanisms to ensure that return
preparers are adhering to professional standards of conduct and following the law. Developers
stated that the system would facilitate quick and easy identification of return preparer trends,
issues, and tax return filing histories. Because the estimated costs to develop and maintain the
system for 10 years were $48 million, the system was not approved for development.
The Office of Professional Responsibility recently purchased a commercial computer software
application for about $175,000 that will replace the Enrolled Practitioner Program System and is
                                                                                       Page 13
                             Inadequate Data on Paid Preparers Impedes
                                        Effective Oversight



currently being configured to meet the needs of the Office of Professional Responsibility. The
new application will control Enrolled Agents, Enrolled Retirement Plan Agents, and Enrolled
Actuaries and will track enforcement cases of all Circular 230 practitioners. IRS officials stated
that all preparers could be controlled on this system, but major modifications to the system
would be required.
One of the IRS’ key objectives in its current strategic plan is to ensure that preparers
adhere to professional standards and follow the law
Currently, the IRS does not have a sufficient management information system to effectively
achieve this goal, including a control to require that preparers have one unique identifying
number. Test results from our sample of 139 preparers demonstrated many of the challenges the
IRS would face in attempting to identify the population of preparers, determine if they are
regulated and the taxpayers they represent, and if they are compliant with their own tax
obligations. This information resides on various IRS systems, but because preparers do not have
a unique identifying number and the systems are not integrated, the data are not useable to
control, track, and monitor preparers.
A reliable management information system is vital for the IRS to achieve this goal.
Additionally, systemic and management controls are necessary to help ensure the validity,
completeness, and accuracy of system data. A management information system with related
controls would enable IRS management to effectively monitor preparer activities and would be
useful to identify preparers and issues for outreach and enforcement actions.
For example, from our statistical sample, we project that there are about 498,289 paid preparers
who prepared and filed tax returns processed in Calendar Year 2008. Of these, approximately:
    •   73 percent appear to be unregulated (i.e., are not attorneys, Certified Public Accountants,
        or Enrolled Agents). Unregulated
        preparers prepared about 65 percent of
        the tax returns.                                               Eighty-three percent of
                                                      all tax returns prepared by preparers in
    •   39 percent are self-employed and               our sample were e-filed, compared to
        prepared 48 percent of the tax returns.        about 60 percent of all individual tax
                                                                    returns e-filed.
    •   37 percent were employed by a
        commercial chain and prepared
        29 percent of the tax returns.
The 139 preparers sampled prepared almost 36,000 tax returns. Figure 5 provides a comparison
of the number of tax returns for our sample of 139 preparers by comparing regulated to
unregulated, self-employed to other employment statuses, and chain to independent preparer.




                                                                                       Page 14
                               Inadequate Data on Paid Preparers Impedes
                                          Effective Oversight



           Figure 5: Comparison of the Number of Tax Returns Prepared
                   for the 139 Preparers in Our Statistical Sample
                                                          Percentage
                                     Total Number           of Total   Percentage of Tax
                  Category           of Tax Returns        Returns         Returns
                 of Preparer            Prepared           Prepared         E-Filed

            Regulated                     12,447              35%            81%

            Unregulated                   23,479              65%            84%

             Total Tax Returns            35,926             100%

            Self-Employed                 17,200              48%            78%
            Other Employment
                                          18,726              52%            88%
            Status

             Total Tax Returns            35,926             100%

            Chain                         10,534              29%            95%
            Independent                   25,392              71%            78%
             Total Tax Returns            35,926             100%
           Source: Our analysis of the IRS Return Transaction File.

Additionally, regulated preparers and preparers not affiliated with a commercial chain prepared
most of the tax returns with income more than $100,000. Commercial chain preparers prepared
the least number of tax returns with income more than $100,000. Figure 6 breaks down
taxpayer income for the 139 preparers by the same categories as Figure 5.




                                                                                           Page 15
                                  Inadequate Data on Paid Preparers Impedes
                                             Effective Oversight



                         Figure 6: Comparisons of Taxpayer Income
                        for the 139 Preparers in Our Statistical Sample

                                            $1        $15,000     $38,647    $75,000     $100,000
         Category of             No         to          to          to         to           and
          Preparer             Income     $14,999     $38,646     $74,999    $99,999       More       Total
     Regulated                   227       2,249       2,891       3,404      1,434       2,242      12,447
     Unregulated                 439       6,881       9,009       5,054      1,244        852       23,479

             Total Tax Returns Prepared                                                              35,926

     Self-Employed               335       3,902       5,555       4,365      1,444       1,599      17,200
     Other
     Employment Status           331       5,228       6,345       4,093      1,234       1,495      18,726

             Total Tax Returns Prepared                                                              35,926

     Chain                       159       3,653       4,203       1,841       407         271       10,534
     Independent                 507       5,477       7,697       6,617      2,271       2,823      25,392

             Total Tax Returns Prepared                                                              35,926
     Source: Our analysis of the IRS Return Transaction File.

Paid tax return preparers are a critical component and stakeholder in tax administration and
represent an important intermediary between taxpayers and the IRS. They are also an important
component in IRS efforts to close the tax gap. The tax return preparer community provides a
unique opportunity to affect taxpayer behavior and compliance with the tax laws.
Recent TIGTA reports have addressed the issues surrounding preparer management
information and a unique preparer number
Since Fiscal Year 2006, the TIGTA has been reporting that a unique identifying number for
preparers would benefit the IRS. In a March 2006 audit report, we recommended the IRS
develop a method of uniquely identifying representatives on the Centralized Authorization File
that does not require representatives to use Social Security Numbers on Form 2848. 15 The IRS
agreed and responded that it would coordinate with the Department of the Treasury to develop a
method to uniquely identify representatives on the IRS Centralized Authorization File. To date,
a unique identifying number for practitioners has yet to be developed.




15
  The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against Incompetent and
Disreputable Tax Practitioners (Reference Number 2006-10-066, dated March 31, 2006).
                                                                                                    Page 16
                                 Inadequate Data on Paid Preparers Impedes
                                            Effective Oversight



In September 2008, we reported that the IRS had limited information on preparers and that a
unique identification number would enable the IRS to better use its current databases to identify
and evaluate preparers’ compliance. 16 The IRS agreed to study this issue by July 2010.
In February 2009, we reported that with its current processes the IRS cannot determine how
many complaints against tax return preparers it receives, how many complaints are worked, and
the total number of multiple complaints against a specific firm or preparer. 17 We recommended
and the IRS agreed to develop a database(s) or tracking system to efficiently control the
complaints.
Requiring the use of PTINs could help the IRS move forward in its preparer strategy
The Practitioner Information and Classification System was to provide the IRS with an
automated multi-functional system. However, IRS officials stated that its development required
significant additional funding. Currently, Enrolled Agents, preparers with PTINs, and Electronic
Return Originators are controlled on two IRS systems. Preparers with PTINs and Electronic
Return Originators are controlled on the Third Party Data Store, 18 while Enrolled Agents are
controlled on the Enrolled Practitioner Program System (soon to be controlled on a new system).
These two systems automate the application process, including renewals, and maintain an
inventory of preparers.
In Fiscal Year 2003, the IRS attempted to use the Centralized Authorization File to determine the
paid preparer population. The IRS resorted to using the names of preparers from the database to
match with third-party data, external to the IRS, to identify Social Security Numbers to conduct
matches against its internal databases. As a result, the IRS had to qualify the use of the data.
Currently, when reporting the population of unregulated preparers, the IRS uses ranges.
Requiring that all preparers use a unique identifying number would allow the IRS, for example,
to use the PTIN application process and the Third Party Data Store to control all preparers and
provide it with a means to identify the population of preparers. The Application for Preparer Tax
Identification Number (Form W-7P) could be updated to include a preparer designation. System
controls, much like those for Enrolled Agents or Electronic Return Originators, could be
considered to verify the information on the Form W-7P. See Figure 7 for an excerpt of the
Form W-7P.




16
   Most Tax Returns Prepared by a Limited Sample of Unenrolled Preparers Contained Significant Errors
(Reference Number 2008-40-171, dated September 3, 2008).
17
   The Process Taxpayers Must Use to Report Complaints Against Tax Return Preparers Is Ineffective and Causes
Unnecessary Taxpayer Burden (Reference Number 2009-40-032, dated February 24, 2009).
18
   The Third Party Data Store is an IRS system used to record and monitor the information on e-Providers.
E-providers include Electronic Return Originators and others who use various IRS electronic services.
                                                                                                  Page 17
                              Inadequate Data on Paid Preparers Impedes
                                         Effective Oversight



                                        Figure 7: Form W-7P




                     Source: IRS.gov.

Since Fiscal Year 2005, the IRS’ strategic plans have included an objective to ensure that
accountants, attorneys, and other tax practitioners adhere to professional standards and follow the
law. Since Fiscal Year 2006, the TIGTA has identified concerns that could prevent the IRS from
effectively achieving this objective. Yet, it is still not feasible for the IRS to efficiently identify
all preparers or enforce the requirement to sign the tax returns and or provide identifying
numbers. Requiring a PTIN for all preparers would help provide the standardization the IRS
needs to identify the preparer population and enforce the Internal Revenue Code. Using the
PTIN application process would provide the IRS with the ability to determine the designations of
preparers and to build business rules to control, track, and monitor preparers using its internal
systems.

Recommendations
The Commissioner, Small Business/Self-Employed Division, should:
Recommendation 2: Revise the target completion date for its study on requiring preparers to
use a single identification number when filing tax returns. This will ensure the IRS has a means
to control and track preparer activities by the 2011 Filing Season—the current date of July 2010
could delay implementation beyond the 2011 Filing Season.
       Management’s Response: The IRS agreed in principle that preparers should use a
       single identification number when filing tax returns. The issue of PTINs for use by tax
       return preparers is on the Department of the Treasury 2008–2009 Priority Guidance Plan.
       The Department of the Treasury and the IRS are looking at the issue of requiring all paid
       return preparers to obtain and use a single identification number when preparing tax
       returns as part of that guidance project. The IRS is not proceeding with the study because
       this issue is being addressed through priority guidance. It will formally request

                                                                                          Page 18
                                Inadequate Data on Paid Preparers Impedes
                                           Effective Oversight



        cancellation of the feasibility study corrective action from our prior audit. 19 Further, the
        Tax Return Preparer Review discussed in Recommendation 1 is expected to encompass
        this issue as part of the Commissioner’s comprehensive recommendations. The IRS will
        provide a copy of the guidance once it is published.
        Office of Audit Comment: In its response, the IRS stated that it has recently
        launched the Tax Return Preparer Review that is expected to cover a broad range of areas
        related to paid preparers, including the issue that preparers should use a single
        identification number when filing tax returns. Therefore, we agree that the IRS should
        cancel the feasibility study corrective action. We will review the guidance once it is
        published.
Recommendation 3: Develop a method to enforce Internal Revenue Code
Section (§) 6695(c) that imposes a penalty on preparers who do not provide an identification
number on tax returns they prepare.
        Management’s Response: The IRS agrees with this recommendation. The Director,
        Examination, Small Business/Self-Employed Division, will commission a
        cross-functional team to study the issue and to make recommendations on a plan to both
        educate paid preparers about their responsibilities under Internal Revenue Code § 6109
        and a plan to enforce compliance by imposing Internal Revenue Code § 6695(c) when
        warranted.
Recommendation 4: Develop a comprehensive data management system that allows the IRS,
at a minimum, to determine the population of preparers by eliminating discrepancies and
duplicates between systems. This system should include business rules that would allow the IRS
to control, track, and monitor preparers’ activities.
        Management’s Response: The IRS agrees with this recommendation. The IRS
        stated that a comprehensive method to identify and track the population of tax return
        preparers is needed. The Tax Return Preparer Review discussed in Recommendation 1 is
        expected to encompass this issue as part of the Commissioner’s comprehensive
        recommendations. Accordingly, the IRS is not in a position at this time to independently
        recommend a specific methodological approach to this issue.


19
  Most Tax Returns Prepared by a Limited Sample of Unenrolled Preparers Contained Significant Errors
(Reference Number 2008-40-171, dated September 3, 2008).




                                                                                                Page 19
                                   Inadequate Data on Paid Preparers Impedes
                                              Effective Oversight



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has complete, accurate, and reliable data
on tax return preparers for efficient and effective tax administration. To accomplish our
objective, we:
I.       Determined what oversight the IRS provides paid preparers and what data the IRS
         maintains on paid preparers by meeting with various IRS officials.
II.      Determined if the IRS has sufficient accurate and reliable data on paid preparers.
         A. Using the Individual Returns Transaction File, 1 determined that 83.8 million tax
            returns were submitted by preparers in Calendar Year 2008 through July 12, 2008.
            We removed approximately 3.3 million tax returns prepared by Volunteer Income
            Tax Assistance or Tax Counseling for the Elderly programs, resulting in 80.5 million
            tax returns. We grouped the tax returns by preparer identifying numbers and removed
            any duplicate numbers, which resulted in 1.1 million unique preparers.
         B. Using the Individual Return Transaction File, we selected taxpayer accounts and
            verified the accuracy of the Individual Return Transaction File tax accounts by
            researching the IRS Integrated Data Retrieval System. 2 Personnel in our Data Center
            Warehouse performed run-to-run balancing 3 by comparing record counts in all logs
            showing that data were extracted from the IRS files to the location of data stored at
            the TIGTA Data Center Warehouse.
         C. Using attribute sampling with a 95 percent confidence level, 5 percent precision, and
            10 percent error rate, we selected a sample of 139 preparers and determined that
            28 (20 percent) could not be identified and/or prepared fewer than 6 tax returns. Nine
            of the 28 preparers could not be identified because the identifying numbers were
            invalid. To help ensure the statistical sample included only those preparers with the
            most likelihood of being paid preparers, we:
             1. Identified and eliminated 555,896 preparers who prepared fewer than 6 tax
                returns. We chose six as the criteria because the National Taxpayer Advocate has

1
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  Run-to-run balancing is an audit control system, consisting of programs, procedures, and files whose primary
function is to account for the number of records passed between applications programs.
                                                                                                        Page 20
                     Inadequate Data on Paid Preparers Impedes
                                Effective Oversight



       previously defined a Federal Tax Return Preparer as someone, other than an
       attorney, Certified Public Accountant, or Enrolled Agent, who prepares more than
       five Federal tax returns in a calendar year.
   2. Identified and eliminated 330,909 tax returns submitted with no preparer
      identifying number.
D. From the population of 575,539 preparers, we selected a random stratified statistical
   sample of 139 preparers, using a 95 percent confidence Level, 5 percent precision,
   and 10 percent error rate. Using the IRS’ Centralized Authorization File, Enrolled
   Practitioner Program System, Returns Transaction File, and the Third Party Data
   Store, we attempted to identify the following for the 139 preparers:
   1. The names of the preparers.
   2. The identification number(s) of the preparers (i.e., Employer Identification
      Number, PTIN or Social Security Number).
   3. Their designations (i.e., if they are an attorney, Certified Public Accountant,
      Electronic Return Originator, or Enrolled Agent).
   4. Those taxpayers represented by the preparers and for what tax periods.
   5. The current compliance and/or enforcement actions for each preparer.
   6. The number of tax returns each preparer filed in Calendar Year 2008.




                                                                               Page 21
                           Inadequate Data on Paid Preparers Impedes
                                      Effective Oversight



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Wilma Figueroa, Acting Audit Manager
Jerry Douglas, Lead Auditor
Tanya Adams, Senior Auditor
Pam DeSimone, Senior Auditor
Sharon Shepherd, Senior Auditor
Andrea Hayes, Auditor
Geraldine Vaughn, Auditor
James Allen, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                Page 22
                          Inadequate Data on Paid Preparers Impedes
                                     Effective Oversight



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:S
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Professional Responsibility SE:OPR
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Director, Examination Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Internal Control OS: CFO:CPIC:IC
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                              Page 23
                                Inadequate Data on Paid Preparers Impedes
                                           Effective Oversight



                                                                                                Appendix IV

           Internal Revenue Code Preparer Penalties

 Code
 Section      Description                                                    Penalty
 6694(a)      Understatement of taxpayer’s liability due to an               Greater of $1,000 per tax return
              unreasonable position                                          or 50 percent of the income
                                                                             derived
 6694(b)      Understatement of taxpayer’s liability due to willful or       Greater of $5,000 per tax return
              reckless conduct                                               or 50 percent of the income
                                                                             derived
 6695(a)      Failure to provide copy of return to taxpayer                  $50 per failure up to a maximum
                                                                             of $25,000
 6695(b)      Failure to sign return                                         $50 per failure up to a maximum
                                                                             of $25,000
 6695(c)      Failure to furnish identifying number                          $50 per failure up to a maximum
                                                                             of $25,000
 6695(d)      Failure to retain a copy or list of returns filed              $50 per failure up to a maximum
                                                                             of $25,000
 6695(e)      Failure of employers to file correct information on each tax   $50 per failure up to a maximum
              preparer employed                                              of $25,000
 6695(f)      Negotiation of taxpayer’s refund check                         $500 per check
 6695(g)      Failure to be diligent in determining Earned Income Tax        $100 per failure
              Credit eligibility
 6701         Aiding and abetting understatement of tax liability            $1,000 per person per period

 6713         Improper disclosure or use of return information               $250 per disclosure or use up to
                                                                             a maximum of $10,000

 7206         Willful preparation of or making a false statement             Up to $100,000, or up to
              regarding a false or fraudulent return or other document       3 years’ imprisonment, or both,
                                                                             together with the costs of
                                                                             prosecution
 7207         Knowingly providing fraudulent returns or other                Up to $10,000, or up to
              documents to the IRS                                           1 year of imprisonment, or both
 7216         Knowingly or recklessly disclosing or using return             Up to $1,000, or up to
              information                                                    1 year of imprisonment, or both,
                                                                             together with the costs of
                                                                             prosecution
 7407         Authority to enjoin income tax preparers                       Civil action may be taken;
                                                                             preparer could lose the right to
                                                                             prepare tax returns

Source: Internal Revenue Code.

                                                                                                     Page 24
          Inadequate Data on Paid Preparers Impedes
                     Effective Oversight



                                                Appendix V

Management’s Response to the Draft Report




                                                      Page 25
Inadequate Data on Paid Preparers Impedes
           Effective Oversight




                                            Page 26
Inadequate Data on Paid Preparers Impedes
           Effective Oversight




                                            Page 27
Inadequate Data on Paid Preparers Impedes
           Effective Oversight




                                            Page 28
